David J. Zimmer
+1 617 570 1192
DZimmer@goodwinlaw.com

Goodwin Procter LLP
100 Northern Ave.
Boston, MA 02210
goodwinlaw.com
+1 617 570 1000

April 20, 2020

ELECTRONIC FILING
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Niz-Chavez v. Barr, No. 19-863

Dear Mr. Harris:
I represent the petitioner in the above-captioned case. The petition for a writ of certiorari was placed on
the docket on January 9, 2020. The respondent filed its response on April 10, 2020. The petition is
therefore currently scheduled to be distributed on April 28, 2020.
I respectfully request, pursuant to this Court’s Order of March 19, 2020, that the Court delay distribution
of the petition until May 12, 2020. Such a brief, two-week extension is necessary to provide counsel for
petitioner with adequate time to prepare and finalize a reply in support of certiorari. In particular, I was
scheduled to return from parental leave on April 6, 2020, but have been forced to extend my leave until
May 4, 2020, due to complications with my childcare arrangements caused by the COVID-19
pandemic.
Counsel for respondent does not object to this extension.
Pursuant to this Court’s Order of April 15, 2020, I am filing this letter solely by electronic filing even
though this case is otherwise governed by this Court’s Rule 34.6 and Paragraph 9 of the Guidelines for
the Submission of Documents to the Supreme Court’s Electronic Filing Systems.
Sincerely,

David J. Zimmer

cc:

Solicitor General Noel J. Francisco (by e-mail)

